Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing ServicesGrant to the San Mateo County Sheriff's Department, California
GR-90-00-002
December 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the San Mateo County Sheriff's Department (SMCS), California.  The SMCS received a grant of $225,000 to hire 3 additional sworn deputy sheriffs under the Accelerated Hiring, Education, and Deployment (AHEAD) program, and $160,500 to redeploy 6.4 sworn deputy full-time equivalents (FTEs) to community policing under the Making Officer Redeployment Effective (MORE 96) program.  The purpose of the additional deputy sheriffs is to enhance community policing efforts.

	In brief, our audit determined that the SMCS violated the following grant conditions:

The SMCS was unable to document the redeployment of 6.4 deputy sheriff FTEs to community policing under the MORE 96 grant, resulting in unsupported costs of $160,499.

	The SMCS requested and received an advance of $160,499 under the MORE 96 grant 5 months before issuing a purchase order for computers, software, and related equipment.  This resulted in imputed interest earnings beyond those permitted under DOJ guidelines; we estimate the interest at $3,094.

	The SMCS was generally not in compliance with grant reporting requirements. The Department Initial Report understated the number of deputy sheriffs, the Department Annual Reports were submitted late, the 1996 Officer Progress Reports were not submitted and subsequent reports were submitted late, and the Financial Status Reports were either not submitted as required or were late.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in the Appendix.